HHS/OIG-Audit--"Follow-up Audit on the Health Care Financing Administration's Resolution of an Office of Inspector General Audit Related to Two Westchester County Institutions for Mental Diseases, (A-02-93-01021)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up Audit of the Health Care Financing Administration's Resolution of an Office of Inspector General Audit
Related to Two Westchester County Institutions for Mental Diseases," (A-02-93-01021)
December 20, 1993
Complete
Text of Report is available in PDF format (796 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
A prior audit report recommended the disallowance of approximately $17.8 million because, contrary to Federal regulations,
the State claimed reimbursement for individuals aged 21 to 64 in facilities that were actually institutions for mental
diseases. In addition to a financial adjustment and procedural changes, we recommended that the State identify additional
inappropriate claims for periods prior to and subsequent to our original audit period. The Health Care Financing Administration
(HCFA), due to State appeal of the original disallowance and staffing problems was unable to resolve and close this last
recommendation, and requested our help in calculating the additional unallowable payments. We provided HCFA with information
showing additional unallowable payments of approximately $20.7 million (Federal share). We recommended that the HCFA utilize
this information to take all necessary action to adjudicate the above final recommendation from the original audit report.
The HCFA concurred.